<html>
<title> - FEMA'S ROLE IN TERRORISM RESPONSE</title>
<body><pre>[Senate Hearing 107-888]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-888
 
                   FEMA'S ROLE IN TERRORISM RESPONSE
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS 

                           UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 27, 2002--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______


                       U. S. GOVERNMENT PRINTING OFFICE
85-708                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

           Subcommittee on VA, HUD, and Independent Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   MIKE DeWINE, Ohio
                                     TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Paul Carliner
                           Gabriel A. Batkin
                              Alexa Sewell
                         Jon Kamarck (Minority)
                          Cheh Kim (Minority)













                            C O N T E N T S

                              ----------                              
                                                                   Page
Statement of Joe M. Allbaugh, Director, Federal Emergency 
  Management Agency..............................................     1
Opening statement of Senator Barbara A. Mikulski.................     1
Statement of Senator Richard C. Shelby...........................     3
Prepared statement of Joe M. Allbaugh............................     9
State and local relationship.....................................     9
Recovery update..................................................    10
Monitoring air quality...........................................    10
Ensuring appropriate safety and preventive measures..............    10
Health monitoring................................................    11
Assistance for clean up to ensure safe reentry of buildings......    11
Lessons learned..................................................    11
Meeting the challenge ahead--Office of National Preparedness.....    12
Office of Homeland Security......................................    12
ONP: Mission and Activities in Support of Homeland...............    12
Organization.....................................................    13
First responder initiative.......................................    13
Fire grants......................................................    13
Citizen Corps Initiative.........................................    13
















                   FEMA'S ROLE IN TERRORISM RESPONSE

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                           U.S. Senate,    
               Subcommittee on VA, HUD, and
                              Independent Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Shelby, Stevens, and Domenici.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

STATEMENT OF JOE M. ALLBAUGH, DIRECTOR


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning, everybody. The VA-HUD/FEMA 
Appropriations Subcommittee will now come to order. This 
morning, we will have the benefit of the testimony of Mr. Joe 
Allbaugh, the head of Federal Emergency Management.
    I called this hearing today to examine FEMA's role in 
responding to acts of terrorism. I want to acknowledge the fact 
that Senator Bond, my ranking member, is on the floor to 
manage--has been the Republican manager for election reform. 
He'll be joining us later. And if his staff has questions they 
particularly want answered, I'll be very happy to--Senator 
Feinstein, as well. And we're very pleased to have our 
colleague, Senator Shelby, here.
    What a difference a year makes. About a year ago, we had 
Mr. Allbaugh here for his very first appearance before the 
committee, presenting the administration's appropriations on 
Federal Emergency Management. We were talking about a new fire-
grant program, how to be ready, about many things. And along 
the way, something horrific happened to the United States of 
America. The aerial attack on the United States of America on 
September 11 was unprecedented. The subsequent impact of 
Anthrax was also unprecedented.
    And today we want to know: What were the lessons learned 
from the last several months? What was FEMA's experience? What 
were the experiences that they gained from that? And what are 
their plans for dealing with this in the future?
    I know that under Presidential Directive PD-39, FEMA is 
designated as the lead agency for consequence management, for 
responding to acts of terrorism. We want to listen to Mr. 
Allbaugh today to find out: Did the Federal response plan that 
FEMA is charged with really work? How did FEMA respond to 
September 11, and what were those crucial lessons learned? What 
can we say now about FEMA Urban Search and Rescue Team? And 
what changes, if any, do we need to improve the program or to 
expand the program? What is the role of the new Office of 
National Preparedness that Mr. Allbaugh began to work on last 
year? And what is the president proposing for FEMA's future?
    Mr. Allbaugh, I want you to know that I support the 
president's war on terrorism and his commitment to homeland 
security. I support the commitment of resources to our first 
responders, particularly our firefighters. And, like you, I 
want to make sure that FEMA remains an all-hazards agency.
    I believe we can get double value for our investment. 
Whatever we put into homeland security into our first 
responders, they're going to be ready. In my own hometown of 
Baltimore, we have several chemical factories. If there is an 
accident or whether there is an attack, the consequence 
management is the same. So I believe that whatever public 
investments we make at the local level are going to protect our 
people against--whether it's a national disaster, an accidental 
disaster, or a malevolent hostile attack on us--we want to make 
sure that FEMA does stay an all-hazards agency, ready for 
everything from earthquakes to dealing with weapons of mass 
destruction.
    I'm going to have several questions for you. We need to 
know how FEMA responded, were there problems in coordination 
with other agencies, how well did the Urban Search and Rescue 
Team respond?
    I'm particularly proud by the fact that one of the FEMA 
Urban Search and Rescue Teams is located in Montgomery County 
and dashed to the Pentagon, stayed there for several days, and 
did, I think, an outstanding job with local fire departments 
filling in where they had gone. We need to know what those gaps 
are.
    We also note that the president's proposal is talking about 
doubling FEMA's budget, focusing $3.5 billion on a first-
responder initiative, consolidating first-responder programs, 
and the Justice Program for Domestic Preparedness. I think 
that's a little organizationally controversial, but we need to 
have a better understanding of this proposal.
    For example, under the president's proposal, the fire grant 
would be rolled into the first responder initiative. I'm 
concerned that our firefighters might not get the same level of 
support they have under a separate program. Our colleagues in 
Commerce, State, Justice have very serious reservations about 
it. Senator Hollings and our colleague, Senator Judd Gregg, who 
is really an authority in counter-terrorism effort, really made 
3 days of hearings last year to focus on where we are, and I 
think their concerns should be taken seriously.
    We want to know about this Office of National Preparedness 
and what it does and how it's going to work, and, of course, 
we're very interested in the president's Citizens Corps. But, 
most of all, we want to make sure that, not only is FEMA fit 
for duty, but that working with and through FEMA, that our 
first responders, the first people on the scene, at often the 
greatest risk, who literally and figuratively put themselves in 
the line of fire, are the best equipped, the best trained, the 
best prepared that America can be able to offer, because they 
really are our soldiers in Homeland Security. And I look 
forward to taking your testimony here today.
    Colleagues, I'm going to turn to you as we prepare for the 
vote. Senator Shelby, you were here. Of course, I--the full 
chairman. With your indulgence, Senator Stevens, do you want to 
wait your turn or----
    Senator Shelby. I'll yield to him.
    Senator Stevens. I have no prepared statement.
    Senator Mikulski. Okay. Senator Shelby?


                 statement of senator richard c. shelby


    Senator Shelby. Thank you, Madam Chairman.
    Director Allbaugh, I appreciate your being here today to 
talk to us about FEMA's role in responding to acts of 
terrorism.
    I'm very interested in this topic, as you know, for several 
reasons. First, the Center for Domestic Preparedness and the 
Noble Training Center located at what was Fort McClellan in 
Anniston, Alabama. You probably know this. Both of these 
facilities provide unique training capabilities of our Nation's 
first responders and medical personnel. In addition, the 
Anniston Chemical Destruction Facility on Anniston Army Depot 
is located in Calhoun County, nearby.
    In light of the attacks on September the 11, many of my 
constituents have raised concerns about the safety of the 
facility and FEMA's role there. Over the past few years, 
Congress has made a significant investment there in the Center 
for Domestic Preparedness and Noble Training Center so that 
they can train thousands of first responders and medical 
personnel. I'm hopeful that the new emphasis on domestic 
terrorism will allow us to further increase our investment in 
these facilities.
    As part of the five-member National Domestic Preparedness 
Consortium, the CDP has the unique distinction of housing the 
only live-agent training facility in the United States. At the 
CDP, first responders are trained with live agents to give them 
hands-on experience responding to, detecting, and dealing with 
live agents that they may encounter in the field.
    But this is not just about facilities. We have an 
exceptional training program in place at the Department of 
Justice. I believe that it's extremely important to maintain 
the integrity and the capabilities of these training programs.
    I'm troubled by the administration's proposal to transfer 
the Office of Emergency Preparedness from the Department of 
Justice to FEMA. Primarily, I'm deeply concerned that ongoing 
first-responder training efforts could be compromised by this 
proposal to switch lead agencies mid-stream. Director Allbaugh, 
you bear the burden to justify, I believe, the necessity for 
this transfer. Any disruption in training activities could 
result in serious consequences.
    Beyond the issue of whether you could implement a 
successful transfer without interruption, the question still 
remains: Why are we doing this? Judge Gregg, Senator Gregg, 
that the chairwoman mentioned, and also Senator Hollings, are 
going to ask these same questions. Why are we taking the chance 
that training could be interrupted? I do not know why.
    To date, I've been provided little information to convince 
me that this will be a valuable transfer. Furthermore, the 
information that I've received leads me to believe that your 
agency is just beginning to do their homework regarding the 
Nation's first-responder training programs.
    Director Allbaugh, although I look forward to working with 
you as this process continues, and learning how this transfer 
will, in the end, better serve our Nation's first responders 
and our country, I'm troubled.
    Director Allbaugh, I would also like to touch on another 
subject that relates to FEMA's role in responding to acts of 
terrorism. That subject regards the protection of the 
communities that are home to U.S. chemical weapons stockpiles. 
I'm sensitive to the concerns of the people who live in these 
communities. I'm encouraged by the steps the Army and the FAA 
have taken to increase the security of these stockpile 
facilities.
    FEMA is responsible for all off-post emergency preparedness 
activities in relation to the Nation's chemical stockpile 
sites. Technical and bureaucratic problems have plagued the 
CSEPP program in Anniston, Alabama. My primary concern has and 
continues to be the safety of the community, of the people 
there. The Alabama delegation has worked diligently with the 
Army and FEMA for years to ensure that maximum protection is 
realized. The governor of Alabama has recognized problems with 
the CSEPP program and has exercised his option to seek a 
judicial remedy.
    Major issues remain to be addressed within the CSEPP 
program in Calhoun County, and I welcome your thoughts 
regarding these critical safety measures and how FEMA plans to 
fulfill its commitment to the community.
    Thank you.
    Senator Stevens. Madam Chair? Mr. Allbaugh, I probably 
won't be back, because we've got a Defense hearing, too, right 
after our 10 o'clock vote, at the Defense Appropriations 
Committee.
    I've heard both the chairman and Senator Shelby. I want you 
to know, I think, to a great extent, what we face is the 
problem of getting prepared to really increase our security for 
our homeland, but without increasing the number of entities 
that are involved.
    You know, I've still got an open mind about this concept of 
FEMA being the lead agency. I think it has trained people that 
have dealt with disasters, and we have more disasters than 
anyone in the country, as you know, so we know FEMA, and we 
trust FEMA. And I think that there are a lot of places that 
don't have disasters that don't know your people and don't have 
that same basis of trust that we do. Through earthquakes and 
floods and tsunamis and everything else, FEMA has been our 
connection with the national government.
    I think that one real question we have now, in terms of the 
overall concept, is communication. Federal agencies are going 
to a LAN mobile-radio concept of total communication, but I 
don't see yet an integration of State and local entities in 
that, and I would hope that that's going to be in the forefront 
of our objective as we review this.
    And Senator Byrd has told me he has some questions about 
the plans that are being made. And, you know, it's been in the 
public--I told our caucus yesterday that Senator Byrd had 
expressed a desire that Governor Ridge come and speak to the 
whole committee at one time, because I think each subcommittee 
is going to have these questions unless we get that basic 
planning out in front of us and we understand the overall 
scheme. I hope that that will be worked out.
    But right now, I do believe we all should sit back and try 
to understand what has been done in terms of this planning and 
to analyze the budget and see if it's going to be adequate to 
meet the national needs, particularly in this homeland-defense 
area.
    I welcome the opportunity to work with you on it. I am 
certain someone has to be in charge. We're going to see a new 
plan now in the Department of Defense, probably this week, 
about who is going to be in charge of that, as far as homeland 
defense. So it is going to be a complicated matter that's going 
to take some time, and my urging to my colleagues here is for 
us to wait and listen and analyze and see if we can make an 
input that's meaningful, as far as our understanding, our 
background on the issues that we deal with here on this 
committee.
    But I'm pleased to see you here, and I wish that I could 
stay the whole time, but I will not be back after the vote. 
Thank you very much.
    Senator Mikulski. Senator?
    Senator Domenici. Thank you very much, Madam Chairman. My 
situation on voting is about the same as his. I will try to 
come back and be here for the second round of questions.
    Senator Shelby, I have the same concerns as you have. The 
State of New Mexico has taken the lead through one of our small 
technical scientific schools with Alabama, and they're doing 
the basic training the underpinning of the training--with 
science and technology that goes into that.
    But let me just say this to the director. I am not at all 
sure that, ultimately, FEMA should have all of the authority 
that the president currently contemplates giving you. None of 
that is said in any way to indicate you do anything but the 
best job. You do. FEMA does an excellent job. You do a great 
job. But the question is going to arise as to where you're 
going to get the authority to do all of the detailed things 
that we're giving you the money to do. And will we not just 
transfer the money to you and then have to let the agencies in 
different statutorily-authorized entities spend the money?
    So this leads me to three fundamental things that concern 
me. First, has the entire activity of first-responder training 
been transferred to FEMA, or does DOJ still retain some aspects 
of this critically important function? I think that's a very 
important question. Second, would the shift in first-responder 
training responsibility require legislative authorization by 
the Congress? And if not, what are the appropriate legal 
authorities that the administration cites as the basis for 
proposing and proceeding with this reorganization of national 
domestic preparedness and first-responder training? I think 
that's a very important question.
    Senator Mikulski. I think that's the bottom--that's the 
launch pad here.
    Senator Domenici. Under the leadership of Senator Gregg, 
who was the then-chairman of the Senate Commerce, Justice, 
State, and Judiciary Appropriations Subcommittee he's now 
ranking member--a very important initiative came into fruition. 
It needs to go beyond its current state, but the Department of 
Justice took the mission over because it was given to them.
    First responders exist in America. You're aware of that. We 
have 126 cities, who, at the end of last fiscal year, had been 
trained as first-responder cities. I don't know if the 
committee knows that. That's New York, and that's everyone. 
That was authorized under the 1996 Act called Nunn-Lugar-
Domenici. Now we've got to follow up and do with those cities 
and others--not for preparedness, but carrying it out. I assume 
that's the job you all have been given, but I'm not sure. I 
can't tell from what I've read.
    I thank you very much. I'll try to get back and ask the 
questions myself.
    Senator Mikulski. Senator Domenici, and to all of my 
colleagues, those--every point that you've raised are valid. 
That's the point of this hearing. And I don't think it will be 
the only discussion we should have. We had a very robust 
exchange with the Attorney General yesterday on this topic.
    But we all, I think, are unified in what is our national 
goal, which is to have the best-trained, the best-equipped, the 
best-prepared first responders that America can do.
    Well, Mr. Allbaugh, why don't you proceed with your 
testimony. By the time you've concluded, there will be a vote, 
and then we'll come back and--with the questions. And we hope 
that as many of our colleagues who can return will. Please.
    Mr. Allbaugh. Thank you, Madam Chairwoman and members of 
the committee. I appreciate the opportunity to be here today. 
It's always a pleasure to come before this committee to discuss 
FEMA's response to the September 11 terrorist attacks and our 
ongoing involvement in Federal-homeland security efforts.
    Our country learned much on September 11, and we at FEMA 
were no exception. We learned, as we do in every emergency 
situation, what works and what needs improvement. On the plus 
side, the Federal Response Plan, the blueprint for government 
response activities, worked. The proper people and resources 
from around the country and from all levels of government and 
expertise were deployed to all three disaster sites. Of the 
more than 3500 Federal workers deployed in New York, more than 
500 are still working at the Disaster Field Office providing 
human services, public assistance and support.
    One of the lessons we have taken from our experience on 
September 11 is the inequity of training, equipment, 
exercising, and planning in the response community. While at 
Ground Zero in New York City, we also saw volunteers, including 
first responders from around the country, turned away because 
of the inability of response managers to put them to proper 
use.
    The breathing apparatus used by the fire department of New 
York City is different from those used by other fire 
departments. Even so, when extra manpower and equipment arrived 
and was made available, they often could not be used. The same 
was true of communications. Different devices were used as well 
as different frequencies, thus limiting the device's usefulness 
and responders' abilities on the ground.
    I personally witnessed, on many occasions, emergency 
managers and first responders passing each other handwritten 
notes as the most efficient way of communicating. By 
establishing national standards and a more robust intra-and 
interstate mutual aid agreements, these compatibility issues 
can be addressed. We are already working with States and other 
Federal agencies on these solutions.
    The New York experience also showed the need for state-of-
the-art personal protective equipment for firefighters and 
emergency medical personnel. In the case of a potential 
chemical or biological threat in the future, the on-hand 
availability of this equipment and the training that would go 
along with it would become all the more crucial. As such, we 
need to expand the training of FEMA's Urban Search and Rescue 
teams to prepare all of them for the hazards of such weapons of 
mass destruction. Currently, we only have six of our 28 USAR 
teams that are prepared for WMD.
    The scope of the September 11 attacks was also a lesson. No 
longer can we assume an attack will include a single target. To 
better prepare for multi-attack targets, we must establish a 
single-incident command structure for the entire country. 
Command incompatibility in our emergency management response 
system will cost lives. To me, these points are not only simply 
public-policy debates to be engaged, but life-and-death 
problems to be solved.
    Twenty years from now, when my kids or my grandkids ask me 
if I did everything I could to help prepare our Nation to 
respond to these threats, I want to be able to say, yes, I 
did--we all did. Any other answer is unacceptable.
    Today we have an unprecedented opportunity to train and 
equip our first responders, prepare our citizens, and protect 
property. Missing this opportunity simply is not an option.
    So given these lessons and others, how do we plan to move 
forward in the future? Well, to begin with, the president, as 
you know, submitted, in his 2003 budget, a request for FEMA 
with new responsibilities and authorities for homeland 
security, first responders, and citizen preparedness. The total 
appropriation the president asked for is $6.4 billion, which 
would essentially double our current budget.
    As we move into the appropriations process, our team at 
FEMA feels especially fortunate to have this subcommittee 
overseeing our future. We've seen how well the members and your 
respective staffs know the issues that we'll be dealing with in 
the future, and we look forward to working with you to complete 
this process.
    Let me address two particular issues with the time that I 
have left. First, let me give you an idea of how we plan to 
account for and allocate this new money, keeping in mind that 
there are three types of individuals in our country--one, those 
who can count, and, two, those who can't. That's a bad joke. 
I'm sorry.
    Mr. Allbaugh. The staff needs to make a note, no more jokes 
in front of committee.
    Second, let me explain why I believe it's so important that 
the first responders and national preparedness initiatives need 
to be consolidated under FEMA's authority.
    The First Responders Initiative would include $3.5 billion 
in grants to State and local jurisdictions for specific needs 
in their fire, police, and emergency medical services. These 
grants will be designed along with long-term goals of building 
State and local capabilities that would initially be targeted 
in four areas: planning, equipment, training, and exercises. 
Our plan would be to take in all the facts, look at all the 
assessments, and get the money quickly to those communities 
that need it most. FEMA will work with these States to provide 
maximum flexibility while we develop standards to ensure 
accountability.
    My second point, the reason I believe that this money 
should be folded into FEMA's responsibility, is that the target 
areas of this First Responder Grant program fit perfectly with 
the tasks that the president has given us in the Office of 
National Preparedness. ONP is already working closely with the 
Office of Homeland Security and Governor Tom Ridge to create 
the strategies properly to be put in place to respond to man-
made disasters. We will develop national standards for State 
and local first responders, which will help solve compatibility 
issues. These standards will pertain to training, equipment, 
communications, mutual aid, and exercising, so that every part 
of our national emergency response system is on the same page.
    Finally, FEMA has been asked and tasked by the president 
with the responsibility for coordinating a Citizen Corps, our 
new network of local citizen and community preparedness 
volunteer organizations. Some of the member programs are 
already established and others are being developed as we speak.
    The citizencorp.gov Web site recently logged its one-
millionth hit, evidence that the president's faith in the 
selfless spirit of the American people is well founded. We 
Americans realize preparedness is not a spectator sport. FEMA 
will provide funds to State and local jurisdictions to set up 
their local volunteer networks, help train volunteers, and 
develop comprehensive preparedness and response plans. More 
often than not, the first responder is a private citizen, a 
witness to attacks. And Citizen Corps will train volunteers to 
help respond to such situations.
    FEMA's relationships with State and local governments, and 
our record of quickly and efficiently getting grant monies out 
the door, already makes us the primary point of contact for 
first responders around the Nation. This grant program, added 
to the established coordinating responsibilities of the ONP and 
Citizen Corps, will improve training, equipment, and 
compatibility of our first responders and citizens across the 
country making our communities stronger, safer, and better 
prepared.
    I thank the committee for the opportunity to appear before 
you today, and I'd be happy to entertain any questions to the 
best of my ability.
    Senator Mikulski. Well, thank you very much, Mr. Allbaugh. 
I think that--that, and then your--I believe you also had a 
more detailed testimony----
    Mr. Allbaugh. I did--submitted for the record.
    Senator Mikulski. Yes, and it's now been----
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski [continuing]. Submitted to the record.
    Mr. Allbaugh. If the committee would accept that, I would 
appreciate it.
    Senator Mikulski. Yes.
    [The statement follows:]

                 Prepared Statement of Joe M. Allbaugh

                              introduction
    Good morning, Madam Chairwoman and Members of the subcommittee. I 
am Joe Allbaugh, Director of the Federal Emergency Management Agency 
(FEMA). Thank you for this opportunity to update you on FEMA's response 
to the terrorist attacks on September 11 and FEMA's evolving role in 
the area of homeland security, and the status of our Office of National 
Preparedness.
    We continue, along with our partners, to provide assistance to 
alleviate the suffering of those impacted by the September 11 terrorist 
attacks. While I can assure you that tremendous work has already been 
accomplished, there is much left to do, and we will continue to work 
hard to speed assistance to those still struggling to overcome losses 
from the tragic events of September 11.
    The level of cooperation, dedication and professionalism exhibited 
by the first responders and others who have worked on the response and 
recovery efforts has been outstanding. We won't forget what they have 
done and commit to providing the continued support they need. Some 
3,500 Federal workers were deployed to New York to support the 
response, about 1,300 from FEMA, and almost 2,000 from other Federal 
departments and agencies. These responders have had a single focus, to 
help the victims recover from this terrible National tragedy. There are 
still 491 people working on the recovery in New York at the Disaster 
Field Office.
                               background
    FEMA is the Federal Agency responsible for leading the nation in 
preparing for, responding to and recovering from Presidentially 
declared major disasters. Our success depends on our ability to 
organize and lead a community of local, State, and Federal agencies and 
volunteer organizations. We know whom to bring to the table when a 
disaster strikes in order to ensure the most effective management of 
the response. We provide management expertise and financial resources 
to help State and local governments when they are overwhelmed by 
disasters.
    The Federal Response Plan (FRP) forms the heart of our management 
framework and lays out the process by which interagency groups work 
together to respond as a cohesive team to all types of disasters. This 
team is made up of 26 Federal departments and agencies, and the 
American Red Cross, and is organized into interagency functions based 
on the authorities and expertise of the members and the needs of our 
counterparts at the State and local level.
    Since 1992, and again in response to the terrorist events of 
September 11, 2001, the FRP has proven to be an effective and efficient 
framework for managing all phases of disasters and emergencies. The FRP 
is successful because it builds upon existing professional disciplines, 
expertise, delivery systems, and relationships among the participating 
agencies. FEMA has strong ties to the emergency management and fire 
service communities and we routinely plan, train, exercise, and operate 
together to remain prepared to respond to all types of disasters.
                      state and local relationship
    Much of our success in emergency management can be attributed to 
our historically strong working relationship with our State and local 
partners. Through our preparedness programs we provide the financial, 
technical, planning, training, and exercise support to give State, 
local and Tribal governments the capabilities they need to protect 
public health, safety and property both before and after disaster 
strikes. Our programs foster the partnerships that are so critical to 
creating a strong comprehensive National emergency preparedness system. 
Terrorism consequence management is just one component of our overall 
emergency management effort. For example, after September 11, Governor 
Ridge and I agreed that there was a need to quickly assess State 
capabilities to effectively respond to acts of terrorism. We assembled 
an interagency team with members from Department of Defense, Department 
of Education, Health and Human Services, Department of Justice and 
Environmental Protection Agency to visit the 50 States and territories 
to assess their readiness against 18 criteria and identify priorities 
and shortfalls. We examined several categories like critical 
infrastructure, personnel, plans, equipment and supplies communications 
and related capabilities. The results were provided in a classified 
report to Governor Ridge right before Thanksgiving.
                            recovery update
    As I said, we have already provided a lot of assistance to help 
with the recovery. Federal funds distributed by FEMA, the U.S. Small 
Business Administration (SBA), the Department of Labor (DOL), and the 
State of New York exceeds $1 billion.
  --FEMA has registered more than 61,000 people seeking disaster 
        assistance through our toll free registration telephone system. 
        More than 85,000 people have visited one of the City-State-
        Federal Disaster Assistance Service Centers.
  --We have provided more than $30.2 million in grants to 5,500 
        households for temporary housing assistance to help people 
        return their homes to a livable condition or find alternative 
        housing.
  --FEMA and the State of New York have committed more than $4 million 
        to the State-run Individual and Family Grant Program (IFG) to 
        assist affected individuals and households with essential and 
        necessary needs.
  --FEMA, in coordination with the New York Department of Labor, has 
        provided more than $5.9 million of Disaster Unemployment 
        Assistance to 2,500 workers and business owners who lost 
        employment as a result of the attack and are not covered by 
        regular unemployment programs (e.g. self-employed).
  --The State of New York was awarded $25 million from the U.S. 
        Department of Labor under the Workforce Investment Act 
        dislocated worker National Emergency Grant Disaster Relief 
        Employment Assistance Program. The funds are being used to help 
        workers, who lost their jobs as a result of 9/11, find or 
        qualify for new jobs. The State has allocated the funds to at 
        least fourteen local agencies to assist the workers.
  --SBA has approved more than 3,300 disaster assistance loans totaling 
        nearly $300 million to business owners in and around lower 
        Manhattan.
  --Nearly 33,000 individuals have received $3.8 million in United 
        States Department of Agriculture Disaster Food Stamps.
  --FEMA provided a $22.7 million grant to New York for its crisis-
        counseling program, Project Liberty (administered by the NY 
        State Office of Mental Health).
  --FEMA has funded $245 million in emergency assistance payments for 
        recovery activities, such as activation of the Urban Search and 
        Rescue (US&R) Task Forces. In the World Trade Center and 
        Pentagon responses 26 of our 28 task forces were deployed and 
        the remaining 2 placed on alert.
  --More than $428 million in Public Assistance funding has been 
        approved to reimburse State and local government agencies for 
        costs incurred responding to and recovering from losses 
        associated with the attack. FEMA is funding 100 percent of the 
        Public Assistance support, most of which has been for debris 
        removal and emergency protective measures.
  --More than 1.2 million tons of the estimated 1.4 million tons of 
        debris have been removed from the WTC site.
                         monitoring air quality
    The importance of air quality, emergency responder health, 
environmental degradation, and related issues are very important to us, 
in addition to responding to the needs of the victims. We have worked 
closely with the Environmental Protection Agency (EPA), the New York 
City Department of Environmental Protection and the New York State 
Department of Environmental Conservation to monitor and address air 
quality concerns. Funding was provided to EPA to conduct air sampling 
throughout Manhattan, Brooklyn and Staten Island and the air quality 
monitoring continues today with numerous monitoring sites providing 
data that can be used to evaluate health and safety standards.
          ensuring appropriate safety and preventive measures
    The health and safety of emergency responders is also of paramount 
concern to us. Right after the attacks, numerous government agencies 
such as the Occupational Safety and Health Administration, National 
Institute for Occupational Safety and Health, Department of Health and 
Human Services (HHS), EPA, and State and City agencies dispatched 
representatives to the site to provide advice on health issues and 
establish appropriate safety measures and protocols. In fact, a 
comprehensive Health and Safety Plan was developed with input from 
numerous Federal, State, and New York City agencies. FEMA is a strong 
supporter of site safety. Our experience in disaster responses has 
taught us the importance of ensuring the safety of the emergency 
responders so that they do not also become disaster victims.
    Federal personnel and teams deployed into the disaster area, such 
as the US&R Task Forces, U.S. Army Corps of Engineers personnel, and 
medical personnel from the HHS, arrived with the necessary protective 
gear. Based on health and safety advisories that were issued, they were 
able to adopt required safety protocols. In the first weeks, FEMA's 
Safety Officer closely coordinated with and participated daily in the 
New York City Interagency Health and Safety Meeting and, as a result, 
was able to pass on advisories and provide training from the meetings.
                           health monitoring
    We took measures to address immediate health concerns involving 
emergency responders through our coordination with HHS/Public Health 
Service. Five Disaster Medical Assistance Teams, four Disaster Mortuary 
Teams, one Veterinary Medical Assistance Team, and one Mental Health 
Assistance Team, were dispatched to New York City to provide health 
care and related assistance. The Naval Hospital Ship USNS Comfort and 
burn nurses were also deployed to support the response.
    Base line medical testing was funded by FEMA for medical 
surveillance of 11,000 firefighters and 4,000 State emergency 
responders working at Ground Zero. Blood samples were drawn by local 
clinics coordinated by the FDNY Medical Office. These samples are being 
used to help establish a health baseline. Follow-up and additional 
testing will be completed by the Centers for Disease Control (CDC) over 
the next 12 months. Nine million dollars has been made available for 
testing, analysis and management of this effort with CDC as the lead 
agency.
    In an effort to be cautious, we asked the US&R Task Forces that 
deployed to WTC to notify us of any medical problems/illnesses 
resulting from or related to their deployment. More than 1,300 US&R 
Task Force personnel and their 84 search and rescue dogs were deployed 
to the WTC. The Task Forces represented 14 States and did a superb job.
      assistance for clean up to ensure safe reentry of buildings
    Because of the amount of dust and debris from the building 
collapses, clean up of residences and the surrounding area has been a 
major priority. We provided housing assistance grants for clean up of 
residences. In addition, the New York State-administered Individual and 
Family Grant program provided grants for items such as High Efficiency 
Particulate Air (HEPA) air filters, vacuum cleaners, and other eligible 
items to help residents with reentry into their homes. In many cases 
landlords and/or insurance companies funded clean up measures. I should 
also mention that voluntary agencies were very active and helped with 
clean up for special needs residents.
    We also supported the New York City Department of Health Community 
Teams in distributing to residents flyers containing recommendations on 
actions needed in order to be able to re-occupy buildings and homes. 
FEMA's Outreach Teams also distributed the flyers. This flyer addressed 
clean up and safety and health concerns and was developed to facilitate 
individuals moving back into their homes.
    Eligible government clean-up costs and monitoring activities are 
being funded 100 percent through FEMA's Public Assistance program. For 
example, the New York City Board of Education's clean up of schools 
near Ground Zero is an eligible expense as is the clean up of city 
vehicles such as fire trucks and police cars.
    We will do whatever it takes to ensure recovery in New York City. 
Most recently I have taken additional steps to deal with emerging 
environmental and health issues surrounding the World Trade Center 
response. I have asked HHS and EPA to work with us to develop more 
comprehensive plans of action to address responder health issues and 
short-and long-term indoor and outdoor environmental issues arising 
from the attacks in New York.
                            lessons learned
    We learn from every disaster experience and incorporate these 
lessons wherever possible into our planning and processes to improve 
the next disaster response. For example, an assessment of the Oklahoma 
City bombing led to the creation of the FEMA Urban Search & Rescue 
teams as well as the processes for monitoring the long-term health of 
1st responders. The World Trade Center and Pentagon disaster responses 
are no different. We have learned from both. We recognize that better 
personal protective equipment is needed for our first responders. More 
training and exercises, better communications and improved 
interoperability of the equipment, and enhanced medical response 
capabilities and mutual aid agreements are also needed. I am committed 
to ensuring that those needs are met.
      meeting the challenge ahead--office of national preparedness
    Although the challenge of meeting these needs may represent an 
expansion of our duties, in many respects, FEMA's role in responding to 
terrorist attacks was identified well before September 11. On May 8, 
2001, the President tasked me with creating the Office of National 
Preparedness within FEMA to ``coordinate all Federal programs dealing 
with weapons of mass destruction consequence management within the 
Departments of Defense, Health and Human Services, Justice, and Energy, 
the Environmental Protection Agency, and other Federal agencies.'' 
Additionally, the ONP was directed to ``work closely with State and 
local governments to ensure their planning, training, and equipment 
needs are met.''
    The President's decision to create ONP was a vital solution for a 
problem long recognized but rarely acted upon--the need for central 
coordination among the myriad of Federal programs dealing with 
terrorism preparedness. Some forty Federal Departments and Agencies 
have been involved in the overall effort to build the National 
capability for preparedness and response to the consequences of 
terrorist incidents. Federal terrorism preparedness programs and 
activities are vested with several departments and agencies based on 
their statutory authorities, Presidential direction, and Congressional 
jurisdiction, including legislation and specific funding earmarks. Many 
of these activities have been primarily focused on the development or 
enhancement of Federal capabilities to deal with terrorist incidents, 
including plans, personnel and physical security upgrades, and 
specialized resources such as protection and detection technology and 
response teams.
    Various independent studies and commissions have recognized the 
problems inherent in this uncoordinated approach. Recommendations by 
the Gilmore Commission, for example, stress the importance of giving 
States and first responders a single point of contact for Federal 
assistance for training, exercises and equipment.
    Many first responders themselves are baffled by the maze of 
programs and agencies that provide preparedness assistance. In recent 
testimony before Congress one first responder Chief Ray Alfred, on 
behalf of the International Association of Fire Chiefs said, `` Some of 
my colleagues in the fire service have . . .  spoken of their concerns 
as to the lack of a coordinated Federal effort, both in terms of the 
preparedness and support programs I have discussed and the seemingly 
endless Federal response capabilities that appear duplicative and 
continue to grow.''
    FEMA is the natural Federal Agency to be the single point of 
contact to facilitate and oversee the implementation of the National 
effort to build preparedness capabilities. FEMA is the lead Federal 
agency for all-hazard emergency management activities involving 
preparedness, response, recovery and mitigation. As the designated lead 
agency for consequence management, FEMA coordinates Federal disaster 
and emergency assistance programs and activities to support State and 
local governments in their response and preparedness efforts.
                      office of homeland security
    Following the September 11 attacks, the President appointed 
Governor Ridge to head the newly established Office of Homeland 
Security (OHS) with the charge to ``develop and coordinate the 
implementation of a comprehensive National strategy to secure the 
United States from terrorist threats or attacks.'' In carrying out this 
activity, the OHS was tasked to ``coordinate the executive branch's 
efforts to detect, prepare for, prevent, protect against, respond to, 
and recover from terrorist attacks within the United States.'' Since 
that time, FEMA has been working closely with Governor Ridge and the 
OHS, and other agencies to identify and develop the most effective ways 
to quickly build and enhance the overall domestic capability to respond 
to terrorist attacks. In conjunction with OHS, FEMA will provide 
critical support for homeland security initiatives, particularly in the 
area of local and State capability building. FEMA will also have a 
significant role supporting the development of the National strategy; 
participating in interagency forums and working groups, including the 
Homeland Security Council, and Policy Coordinating Committees; and 
contributing to the interagency budget strategy and formulation 
process.
           onp: mission and activities in support of homeland
    The Office of National Preparedness' (ONP) mission is to provide 
leadership in the coordination and facilitation of all Federal efforts 
to assist State and local first responders (including fire, medical and 
law enforcement) and emergency management organizations with planning, 
training, equipment and exercises necessary to build and sustain 
capability to respond to any emergency or disaster, including a 
terrorist incident involving a weapon of mass destruction and other 
natural or manmade hazards.
    FEMA has made the following changes to support this expanded 
mission to support the Office of Homeland Defense:
  --Realigned preparedness activities from the Readiness, Response and 
        Recovery Directorate to ONP;
  --Realigned all training activities into the U.S. Fire Administration 
        to allow greater coordination between training for emergency 
        managers and training for firefighters;
  -- Moved the authority for credentialing, training and deploying 
        Urban Search and Rescue teams from the Readiness, Response and 
        Recovery Directorate to the U.S. Fire Administration.
                              organization
    The ONP is organized in FEMA Headquarters under a Director 
(reporting directly to the FEMA Director) and supported by a Management 
Services Unit and four Divisions to carry out key its functions to 
coordinate and implement Federal programs and activities aimed at 
building and sustaining the National preparedness capability. The 
divisions and their functional responsibilities include the following:
  --Administration Division--Provide financial and support services, 
        and management of the grant assistance activities for local and 
        State capability building efforts.
  --Program Coordination Division--Ensure development of a coordinated 
        National capability involving Federal, State, and local 
        governments, to include citizen participation in the overall 
        efforts to effectively deal with the consequences of terrorist 
        acts and other incidents within the United States.
  --Technological Services Division--Improve the capabilities of 
        communities to manage technological hazard emergencies-whether 
        accidental or intentional-and leverage this capability to 
        enhance the capability for dealing with terrorist attacks.
  --Assessment and Exercise--Provide guidance, exercise, and assess and 
        evaluate progress in meeting National goals for development of 
        a domestic consequence management capability.
    We continue to work with all 55 States and territories and 
Federally recognized Indian Tribes and Alaskan Native Villages to 
implement our current and other grant programs to assist State, Tribal 
and local government to enhance their capabilities to respond to all 
types of hazards and emergencies such as chemical incidents, incidents 
involving radiological substances, natural disasters, etc.
                       first responder initiative
    The President's First Responder Initiative will be led by FEMA and 
implemented under the Office of National Preparedness. The President's 
proposed fiscal year 2003 budget includes significant Federal funding 
to dramatically enhance the homeland security response capabilities of 
America's first responders with funds targeted to purchase equipment, 
train personnel and develop response plans.
    The initiative builds on existing capabilities at the Federal, 
State and local level. It will include the development of standards to 
ensure maximum interoperability and provides incentives to develop 
mutually supportive programs to maximize effective response capability.
    The President is proposing $3.5 billion to train firefighters, 
police officers and emergency medical technicians to improve response 
to chemical or biological events, provide new equipment, and help local 
governments develop comprehensive plans to prepare for and respond to 
terrorist attacks. FEMA would be tasked with administering these funds.
                              fire grants
    FEMA, through the United States Fire Administration (USFA), has 
completed its Assistance to Firefighters Grant Program grants for 
fiscal year 2001. In a nine-month period, FEMA/USFA created and 
administered a new grant program that focused on the basic firefighting 
and equipment needs of our nation's local fire departments and fire 
service organizations.
    Given their significant role as 1st responders to a disaster, as 
was shown by their bravery on September 11, the need of firefighters 
for additional training and equipment to respond to future terrorist 
attacks will be addressed by ONP.
                        citizen corps initiative
    Citizen Corps is part of the overall effort of Freedom Corps to 
assist individuals and communities with implementing Homeland Security 
Programs in their areas. Since September 11, 2001, Americans are more 
aware than ever of the threat of terrorist acts on home soil. In the 
days following the attacks we saw immediate and selfless volunteering, 
generous monetary gifts, blood donations, and an outpouring of support 
and patriotism across America. Sustaining that spirit of volunteerism 
and unity is crucial to defending the freedoms America holds dear.
    In order to help Americans strengthen their communities, President 
Bush tasked FEMA with overseeing Citizen Corps. This broad network of 
volunteer efforts will harness the power of the American people by 
relying on their individual skills and interests to prepare local 
communities to effectively prevent and respond to the threats of 
terrorism, crime, or any kind of disaster.
    The Citizen Corps builds on existing crime prevention, natural 
disaster preparedness, and public health response networks. The Citizen 
Corps will initially consist of participants in the following five 
programs: the Volunteers in Police Service Program; an expanded 
Neighborhood Watch Program; the Medical Reserve Corps; Community 
Emergency Response Teams (CERT), and Operation TIPS. FEMA has the 
responsibility for approving additional programs to be affiliated with 
Citizen Corps in the future. Individuals who participate in any of the 
Citizen Corps programs will be members of Citizen Corps.
    The Citizen Corps will bring together local government, law 
enforcement, educational institutions, the private sector, faith-based 
groups and volunteers into a cohesive community resource. The Federal 
role is to provide general information, to develop training standards 
and materials, and to identify volunteer programs and initiatives that 
support the goals of the Corps.
    What we need to do now is break down the firewalls and allow the 
ONP to coordinate and facilitate all preparedness programs. As I said 
before we need one Agency, one place for all 1st responders to receive 
assistance for planning, training, equipping and exercising in 
preparation for future WMD or terrorism events.
    Operationally, FEMA is well prepared and equipped to respond to 
terrorist disasters. Similar to natural disasters, following a 
terrorist event FEMA aims to ensure that the Federal Government and its 
partners provide needed support to disaster victims, first responders, 
and local governments.
    I look forward to working with Members of the Subcommittee and 
Congress as a whole as we go forward in helping our nation to better 
prepare for the future.

    Senator Mikulski. Yes. And I, of course, will be back after 
the vote. I want to turn to my colleagues as a--just in 
senatorial courtesy. For those who might not come back--be able 
to come back because of other demands, I'm very happy for you 
to read off the questions and be sure that they are heard. And 
then we can come back to me after the vote.
    Mr. Chairman, did you have some questions?
    Senator Stevens. Yeah, I have just one, Mr. Allbaugh, and 
that is about this--it concerns what I've mentioned before--and 
that is, what are the plans for integrating the State and local 
response agencies into the LAN mobile radio system that you are 
proposing?
    Mr. Allbaugh. That's one of our greatest problems across 
the country--the incompatibility of systems and individuals to 
communicate with one another. I wouldn't mind if we took $2 
billion of this additional $3.5 [billion] and solved that 
problem with getting the right software in place, not to be in 
a position of telling a community they need to buy Ericsson or 
Motorola or a specific type of equipment, but establish the 
standards so it would allow individuals--police, fire, and 
emergency medical teams--to communicate with one another.
    We had so many people show up in New York City. The systems 
were totally incompatible. We had fire trucks that would show 
up, pumper trucks, and they couldn't connect the hoses, for 
example, because New York City had a different standard.
    We need to have national standards when it comes to 
equipment, when it comes to training, when it comes to 
communication. If you cannot pump, it costs lives. That is an 
unfortunate down side.
    We're making the first steps at the national level, as you 
have alluded to, with the Federal agencies. It is a bold first 
step, and I congratulate members of Congress for forcing us to 
do this. We need to do this. We need to set those same 
standards at the State and local communities and adhere to 
those standards, enforce those standards, and make sure 
communities have the ability to talk to one another during an 
incident.
    Senator Stevens. Well, it's not unlike the problem we faced 
when we changed the radios--and the communication divides for 
our ships off our shore. We did change them--twice, in my time 
here in the Senate. And in both instances, we had to have a 
period in which people could adapt to these new regulations. 
And it was an expensive thing to change radios on--not only 
pleasure craft, but on the fishing boats and the marine safety 
boats and the Coast Guard Auxiliary. It took a lot of money to 
do that.
    Unless there is money available for these local people to 
make that change, they're not going to be able to comply.
    Mr. Allbaugh. I would agree with that, sir.
    Senator Stevens. And the difficulty is, if you change into 
LAN mobile radio first, your people are going to come on the 
scenes and be talking to each other, but the guys who are there 
first are going to be talking in a different language. And that 
bothers us considerably, particularly those of us who come from 
very sparsely populated areas and have enormous problems in 
dealing with the security of the homeland for everybody 
concerned. I mean, we're stuck out there, half the coastline of 
the United States off one State.
    And if we're going to be able to follow the lead of the 
Federal Government, some consideration has to be given of the 
cost of and the time frame for compliance. All we ask is to be 
able to try to work together. I'd hate to see FEMA convert 
completely in the Federal system of communications devices that 
could not be used because we don't have the type of devices 
that are necessary to understand one another. It's the largest 
problem for us, and I hear you say it's the largest one for 
you.
    Mr. Allbaugh. The largest problem in the Nation right now 
that faces us is the ability to communicate, and I don't think 
this is a problem that can be solved in 1 year, or 2 years. 
This is a multi-year problem, and it's going to require 
assisting State and local communities in funding by way of 
grants to achieve these standards we need to set in place.
    Senator Stevens. How long will it take us to devise the 
standards?
    Mr. Allbaugh. We can devise the standards probably in 3 to 
6 months, easily, with necessary input. We've already done a 
lot of groundwork in this area, and I think that emergency 
managers, fire and police across the country recognize the 
problem. They want to solve the problem as much as we do. And 
we can't put the entire burden on their back. This has to be 
something we solve shoulder to shoulder, and I'm anxious to 
tackle the problem.
    Senator Stevens. Thank you very much.
    Senator Mikulski. Senator, are you coming back, or----
    Senator Domenici. I have both appropriations and a budget 
hearing.
    Senator Mikulski. Well, you have a question about the 
authority, again, with----
    Senator Domenici. I'll submit four, if you will submit them 
for me, Senator Shelby, for him to answer. I'll just ask one 
question.
    Senator Shelby. I'd be glad to. You go ahead, and take your 
time. I'm coming back.
    Senator Domenici. Let me just give a little bit of history 
and see where we are. First, I hope you know that I'm very much 
on the side of the president, in terms of trying to streamline 
a response here. The catastrophe we had has come alive on the 
issue. Where we had been asleep, waiting around in disbelief 
that this could ever happen in America, we now know we have to 
proceed well beyond just having first responders in our 
communities. That isn't the solution to the problem. That's 
just the beginning.
    But I'll give you just a bit of history. The National 
Defense Authorization Act of 1996 had a provision in it. In 
1996. Imagine. And we did so little about it. It was an 
amendment offered by Lugar, Nunn, and Domenici. It included a 
provision that responder training was to take place in 120 
major cities to prepare for potential disaster attacks that 
might use weapons of mass destruction. The Department of 
Defense carried out most of this training, but in 1999, the 
Clinton administration transferred it from the Department of 
Defense to the Department of Justice.
    Through the leadership of Chairman Judd Gregg, the Senate 
Commerce, Justice, State, and the Judiciary Subcommittee 
required the Clinton administration to prepare a 5-year 
counter-terrorism plan for the Federal Government. I believe 
this was in 1998.
    As part of that initiative, the National Domestic 
Preparedness Consortium was established. It was headquartered 
in Fort McClellan, in your State of Alabama. There are four 
training partners spread out in the country. There are experts 
now in explosives, chemical, and biological weapons of mass 
destruction, and others.
    So I understand the need for central coordination among 
this myriad of Federal programs dealing with terrorism. Yet at 
the same time, significant groundwork has already been laid in 
the department--that is the Department of Justice--to carry out 
this effort. There are many professionals already hired and on 
board. I think you're aware of that situation.
    So preparedness within FEMA that would be designed, among 
other things, to work closely with State and local governments 
to ensure their planning, training, and equipment. Those are 
the words the president used to create this transfer when he 
created it, that we were to ensure that they would work closely 
with State and local governments, et cetera.
    In your written testimony, you stated that FEMA is a 
natural Federal agency to be the single point of contact to 
facilitate and oversee the implementation of this national 
effort to build preparedness capability.
    I have one question that falls on that set of facts. Given 
the fact that the groundwork is already there--it's been laid 
in other departments and agencies--and that there are very 
large increases requested for first-responders in the 
president's budget, why do you believe that your agency is such 
an obvious choice for this task?
    Mr. Allbaugh. I think simply and solely because of our 
existing relationships with State and local community leaders. 
We have been training first responders for a number of years, 
since the inception of FEMA, back in 1979. And I would think 
that, based upon those relationships--and, quite frankly, maybe 
those individuals are the ones you should ask the question: Who 
do they best want to deal with?
    But we are providing at the Federal Government a confusing 
array of options as to who local and State individuals need to 
go to for their training. Regardless of whether it's FEMA or 
Justice or DOD--all the first responder training, I would ask, 
be consolidated into one area so we make it as easy and as 
simple as possible for those individuals who need to receive 
the training.
    We have an incredible amount of grants that we do on an 
annual basis to State and local communities. This year alone 
we'll give over $3.1 billion to State and local communities in 
the way of grants to assist them with their preparedness, 
mitigation, and planning. This year, because of New York City 
and the Pentagon, we'll spend over $7 billion in grants.
    And those relationships are ongoing, they're evolving, 
they're thriving, and they are the basis, the sole basis, for 
us being able to provide the training that we do in such a 
wonderful job up at Emmitsburg.
    Senator Domenici. Thank you very much.
    Senator Mikulski. Well, thank you, Senator Domenici, for a 
really active engagement in these issues. This committee will 
stand in recess so that it can go to vote. And we'll be back--
--
    Mr. Allbaugh. I promise I won't leave.
    Senator Mikulski [continuing]. In 10 or 15 minutes, and 
we'll resume and follow our regular order.
    The subcommittee will now resume its deliberations. And, 
Mr. Allbaugh, I want to thank you for coming to the committee 
and know that this is not the hearing on the FEMA 
appropriations.
    Mr. Allbaugh. Right.
    Senator Mikulski. This is the discussion on, really, a 
year's work, going back to when the president, in May, asked 
you to really establish the Office of National Preparedness at 
FEMA and then to present recommendations to him, as I recall, 
in the fall. And, of course, before those recommendations 
happened, we had the September 11, attack.
    Could you tell us why, when the vice president and the 
president asked you to conduct that review, where were you 
before the attack and then how that then evolved into what 
you're presenting today?
    Mr. Allbaugh. What we were leading up to was a presentation 
of a confusing picture at the State and local level, and 
especially at the Federal level, as to who was responsible for 
what when an occurrence takes place. Then we were sidetracked 
with the activities on the 11 and, at the end of last year, 
began aggressively reestablishing ourselves with ONP. I 
selected Mr. Bruce Baughman, who's been with FEMA since its 
inception, to head up the responsibilities of ONP. He's doing a 
fabulous job, has the necessary contacts throughout the Federal 
Government, and I'm proud he's going to be leading this effort.
    But crystalizing the necessary training, equipment 
purchases, and crafting a plan for the country to make sure 
that our first responders are the best trained, best equipped, 
best exercised--it's great to buy the toys. It's wonderful to 
train on those toys. But if we don't exercise, we never know 
where the glitches are. And I learned over the past year, and 
it was brought home to me especially on the activities of the 
11, the need to train and exercise more.
    A sizeable portion of the president's proposal of $3.5 
billion will go to training and exercises at the State and 
local level. So Bruce's shop will be responsible for 
coordinating that entire effort with State and local 
communities.
    Senator Mikulski. Well, Mr. Allbaugh, just listening to 
you, it's like kind of being at a hearing in NATO. When NATO 
first got started, there was this whole issue of who was in 
charge, the inter-operability--were we going to speak a common 
language, and they were all going to speak on the same 
frequencies.
    Mr. Allbaugh. Right.
    Senator Mikulski. This whole issue of, I will call it, 
``inter-operability,'' not to have sameness in our local 
communities,' cause communities are not the same, but this 
whole inter-operability issue, even within states--you know, 
over a 100 years ago, we had the great Baltimore fire, and we 
found, when people came to our rescue, because of even that 
equipment in those days, they could not help us. That 
established the--that led to the establishment of the national 
fire-plug standards.
    Mr. Allbaugh. That is right.
    Senator Mikulski. And, you know, I do not want to reduce it 
to that, but that was the technology at the time. Do you see--
what you are proposing dealing with what we call the inter-
operability, the communication issue, even speaking the common 
language, so the codes or whatever or--language all means the 
same.
    Mr. Allbaugh. I believe that is the challenge ahead of us. 
Setting national standards so everyone will understand what is 
required when it comes to deployment of assets at any given 
incident--on a regional basis and a statewide basis--so we will 
not have pumper trucks show up at a site that cannot connect 
the hoses; so we can have and ensure that police and fire are 
communicating on the same frequencies and have the ability to 
talk to one another; so we make sure we don't put, 
unnecessarily, lives at risk beyond the lives that those brave 
men and women are trying to save.
    It is a problem nationwide, and we can solve this. There 
are a number of entities right now at the Federal level that 
are trying to address this, including an interagency committee 
headed by Justice and DOD. We have been asked to participate. I 
look forward to our participation, helping solve this problem 
with the FCC. It is a massive problem, but it can be solved.
    Senator Mikulski. It is a massive problem. First of all, 
what I am interested in both in the new proposals and the ideas 
that you are expressing today, whatever is the office, Is what 
the president's proposals, particularly for the merger with 
Justice or the moving over of Justice--is it a change that will 
make a difference?
    Mr. Allbaugh. I believe it will.
    Senator Mikulski. Could you elaborate?
    Mr. Allbaugh. I believe it is----
    Senator Mikulski. I say it in the most cordial way. We 
really want to work with the president----
    Mr. Allbaugh. Sure.
    Senator Mikulski [continuing]. Governor Ridge, you and John 
Ashcroft and----
    Mr. Allbaugh. I appreciate that.
    Senator Mikulski [continuing]. You know, we're all kind of 
Team America here.
    Mr. Allbaugh. Well, let me first congratulate the members 
of the committee for the hard work that you put in on 
addressing first responders. You have the five training 
facilities that Senator Shelby alluded to earlier. They are 
assets to this country. And the goal is to make sure that we 
properly enhance those assets so there is no confusion among 
State and local first responders as to where they should go for 
proper training.
    I believe ODP primarily focuses on fire, rescue, and 
HAZMAT. We're an all-hazards agency. We want to make sure first 
responders can address any type of incident. And now our most 
critical incident is one that is man-made, a catastrophic 
disaster that we've all seen.
    We have the necessary relationships and training to 
coordinate this, nationwide. And I think the president is 
interested in simplifying a command structure, if you will, 
within the executive branch as to who's responsible for what. 
And that's the purpose and the reason behind moving ODP, and 
the desire to move ODP to FEMA.
    Senator Mikulski. Well, do you think that this new 
arrangement, where FEMA will remain an all-terror, an all-
hazards agency, because there are those in some of the local 
communities that are wondering are we becoming an all-homeland 
security agency or an all-terrorism-focused agency?
    Mr. Allbaugh. I understand that----
    Senator Mikulski. How would you keep the focus when it 
being this all-hazard response for our first responders, 
because that's really what we're talking about.
    Mr. Allbaugh. Yes, ma'am. I understand their concern. I 
think part of the reason that there is a special added emphasis 
on homeland security is because the events of September 11 are 
5 and a half months ago, still fresh in our mind. We're very 
concerned about our security, nationwide.
    That is not to dismiss or take away, in any way, shape or 
form, at FEMA, our responsibility for disaster mitigation, 
after the fact and pre-disaster mitigation. That and flood 
protection are our core entities. We will continue, as we have 
in the past, making sure that communities are well educated. We 
will assist them, as we have in the past, with necessary grants 
to better improve their building-code practices, when it comes 
to flood protection, or any type of mitigation that the 
community would like to take place.
    We need to be prepared for everything. We're not as 
prepared as we should have been on the 11. We're better 
prepared today than we were, and we'll get better as each day 
passes.
    Senator Mikulski. Well, am I correct in assuming that what 
a first responder needs to do--particularly now some of the 
firefighters--is to--whether it's a national disaster for our 
emergency medical and management, et cetera--but our response 
and our preparedness needs to be the same. And I don't mean 
that it doesn't require different equipment for a HAZMAT 
situation and so on.
    Do you see that the training and the exercises, which I 
think is really what Judd Gregg's point was yesterday--because 
under the Office of Domestic Preparedness, they did a lot of 
training and exercises--but my point is that the exercise 
training would be not only for weapons of mass destruction or a 
terrorist attack, or a chemical incident. But it also could be 
another natural disaster. Would you see those exercises----
    Mr. Allbaugh. Absolutely.
    Senator Mikulski. I see Bill shaking his head. Did you want 
to--go ahead.
    Mr. Allbaugh. Absolutely. We truly are an all-hazards 
agency. And many times we have individuals who focus just on 
floods, or they focus on tornados, or they focus on hurricanes. 
We need each one of those individuals in the responder 
community to be able to respond to literally anything. This 
training will be all across the board for all first responders.
    Senator Mikulski. Senator Shelby, you've been very patient 
and very generous with your own colleagues. Please, you go 
right ahead.
    Senator Shelby. Thank you. Thank you Madam Chairman.
    Senator Mikulski. And you go right ahead.
    Senator Shelby. Thank you, first of all, for holding this 
hearing and for your courtesy.
    I'm deeply concerned that the ongoing--and I mentioned it 
in my opening statement----
    Mr. Allbaugh. Yes, sir.
    Senator Shelby [continuing]. First-responder training 
programs could be compromised by the proposal to switch lead 
agencies midstream. Any disruption in training activities could 
result in serious consequences.
    So the question remains: Why are we doing this? In my 
opinion, the only reason that we should switch agencies 
midstream is because there is overwhelming evidence that these 
programs can become better than they are in the current 
structure.
    Last year, Congress provided $35 million to the Center for 
Domestic Preparedness so they may train 10,000 first responders 
this year. In addition, thousands more will be trained by the 
other consortium programs. The White House describes the budget 
proposal as one that will allow, quote, ``more than 11,000 
emergency-response personnel to be equipped and trained in 
2003.''
    Could you tell us why a budget that professes to increase 
our Nation's commitment to first responders by $3.2 billion 
would actually, it seems to me, result in a decrease in the 
number of those individuals being trained?
    Mr. Allbaugh. No, sir, I can't. That logic fails me----
    Senator Shelby. Would you get back with me on that?
    Mr. Allbaugh. I sure will. I'd be happy to research that.
    Senator Shelby. That may have just been a statement, but it 
was a statement.
    Mr. Allbaugh. Would that have been a statement from OMB?
    Senator Shelby. I don't--I thought it was the White House. 
So it could have come from there. I don't know where it came 
from.
    Mr. Allbaugh. I apologize. I'm not familiar with that.
    Senator Shelby. Would you furnish that----
    Mr. Allbaugh. I'd be happy to do that, sir.
    Senator Shelby [continuing]. And respond back to----
    Mr. Allbaugh. You bet I would.
    Senator Shelby [continuing]. Myself and to the Chair. FEMA 
is responsible--just a little background here, and then I'll 
get into questions--responsible for all off-post emergency-
preparedness activities in relation to the Anniston Chemical 
Destruction Facility at the Anniston Army Depot. Technical and 
bureaucratic problems have plagued the CSEPP program in 
Anniston. Most recently, FEMA has withheld funds allocated for 
the Anniston CSEPP program in Calhoun County by Secretary Pete 
Aldridge.
    You hosted a recent meeting with officials from the Army 
and FEMA about the CSEPP funds. And Governor Siegleman, if he 
hasn't, he's planning to file suit in the Federal District 
Court in Birmingham in an effort to stop further operations of 
the incineration facility until the Army and FEMA address and 
implement several outstanding critical safety measures in 
Calhoun County.
    My question is this. Although I regret you were unable to 
attend the recent meeting in my office with Senator Sessions 
and others regarding the Chemical Stockpile Emergency 
Preparedness Program to discuss critical safety issues 
involving Calhoun County and surrounding communities in my 
State. It wasn't--Congressman Aderholt, Congressman Riley was 
not there, but his staff was--I correct myself.
    But this is just not an Alabama issue, as Senator Stevens 
has made clear. I'm concerned about all the communities that 
are home to U.S. chemical weapons and stockpiles. I'm sure you 
understand and agree with the concern that many people who live 
in these communities have after the attack of September the 11. 
Many see these sites as high-risk areas and targets for 
terrorism.
    I'm encouraged by the steps the Army and the FAA have taken 
to increase the security of these stockpile facilities. As the 
director, though, the agency responsible for all post-emergency 
preparedness around these sites, I'm troubled that critical 
safety measures are still being debated, and emergency-
preparedness funding continues to be withheld by FEMA in my 
State.
    What are you doing to see that these issues are resolved, 
and the sense of vulnerability that many feel in these 
communities is replaced with a sense of confidence that they 
enjoy maximum protection as required by the statute?
    Mr. Allbaugh. Thank you, Senator, for the question. I, too, 
am deeply concerned about those individuals in Anniston and 
surrounding all eight sites. We have met with city officials. 
We are continuing a dialogue. I have asked David Paulison, 
who's the U.S. fire administrator, to take this responsibility 
personally for me to resolve this issue. Just recently, we 
disbursed $25 million to the State, $16 million to the State 
and $9 million to Anniston. There's still $15 million to be 
disbursed.
    I'm anxious to solve this problem. The issue basically 
revolves around masks. We lack the necessary testing on masks, 
the appropriate recommendation. I'm deeply concerned about 
giving masks to individuals without proper training, Senator. I 
don't mind providing the training to those individuals. I am 
worried about giving folks a mask without the training, and 
then they have a false sense of security. We're meeting Friday 
and the beginning of next week with numerous individuals to 
address the remaining $16 million, and I'm----
    Senator Shelby. What we are trying to do is work that out--
--
    Mr. Allbaugh [continuing]. Anxious to resolve this.
    Senator Shelby [continuing]. But work it out to make sure 
that the people who live in the community there are safe if 
there were to be a mishap.
    Mr. Allbaugh. I understand.
    Senator Shelby. Understand where we're coming from.
    Mr. Allbaugh. I do understand, sir. I'm concerned with, not 
only that site, but the other seven sites as well.
    Senator Shelby. I would also like to explain with a short 
narrative why so many people are frustrated and outraged with 
FEMA's activity regarding funding and implementation of safety 
measures. You alluded to that. Let me just run through it.
    One of the most pressing safety items has been an upgrade 
of the country's EMIS--is that what you call it--software.
    Mr. Allbaugh. Software, yes.
    Senator Shelby. EMIS software system. This upgrade would 
allow the local EMA to quickly and accurately warn the 
thousands of people who live within a short distance of the 
stockpile in the event--the chemical stockpile--in the event of 
an accident.
    Despite the existence of EMIS, the Army accepted an 
unsolicited bid in 1993 from Pacific Northwest National 
Laboratory to develop a second emergency software system for 
the CSEPP program, which is known as FEMIS, F-E-M-I-S. Forty 
million dollars and 9 years later, General Doseberg, the 
stockpile commander, said the Army will not use FEMIS because 
of test failures. Consequently, Calhoun County is using EMIS. 
Funding to upgrade EMIS has been requested so that the Army in 
Calhoun County will have the best possible software system 
operating their EOCs.
    Last October Undersecretary of Defense Pete Aldrich got 
involved in the Chemical Demilitarization Program. An agreement 
was reached to fund the software upgrade. This software funding 
issue has persisted for years, and it's consistently been 
denied by FEMA. The Army and FEMA have studied this issue and 
conducted numerous tests.
    In fact, another meeting was just recently held in Denver, 
Colorado, to further study the EMIS versus FEMIS issue. This 
delay has been perplexing because of the overwhelming support 
of the Army and the communities which are home to these sites 
have given to EMIS. FEMA, though, has continued to support the 
use of the FEMIS system.
    Interesting, 2 weeks ago, the top official of FEMA 
responsible for this matter announced plans to leave FEMA to 
take a job with Battel Memorial Institute, which operates the 
Pacific Northwest National Laboratory, the developer of the 
FEMIS software. Apparently this move has been in the works for 
some time.
    A somewhat different, yet similarly curious, situation 
exists within the Army, regarding personnel with strong 
connections to the FEMIS software. I find it very discouraging 
that employees at the Army and your agency who are responsible 
for working with my State on these critical safety issues 
appear to have such a conflict of interest.
    I hope that you will be sensitive to situations like this 
in the future as we all work to ensure the safety of these 
stockpile communities.
    Mr. Allbaugh. I appreciate your concern. I share that 
concern. I----
    Senator Shelby. Where are we on that?
    Mr. Allbaugh. We're about to resolve the $6 million on the 
automation issue. Yes, sir.
    Senator Shelby. Will it work?
    Mr. Allbaugh. Well, I don't know. It's beyond my technical 
capabilities, but we will resolve this. And I probably hastened 
the departure of that individual from our agency.
    I cannot--I will not tolerate conflicts of interest.
    Senator Shelby. Good.
    Mr. Allbaugh. And it irritates me to learn of these things. 
And we're in the process of correcting this problem. I 
appreciate you pointing it out.
    Senator Shelby. Mr. Director, lastly--the Chairwoman has 
been very courteous here--I want to just mention to you and 
your staff that you--we have an ongoing interest in a 
constituent matter that your staff--Senator Sessions, 
Congressman Riley, and I have previously written to you about, 
and we'll touch base with you again on that. We hope you can 
resolve that.
    Mr. Allbaugh. Is this regarding----
    Senator Shelby. Other than that----
    Mr. Allbaugh [continuing]. Pine Bluff, Arkansas, that----
    Senator Shelby. That's right.
    Mr. Allbaugh [continuing]. You're talking about? We have a 
series of investigations----
    Senator Shelby. Yeah, that's what----
    Mr. Allbaugh [continuing]. Going on there.
    Senator Shelby. We want you to find out what needs to be 
done and do it.
    Mr. Allbaugh. That's what I'm trying to find out, sir.
    Senator Shelby. Good.
    Mr. Allbaugh. I know there are some problems, and I want 
to----
    Senator Shelby. We want you----
    Mr. Allbaugh [continuing]. Correct them.
    Senator Shelby [continuing]. To do what's right.
    Mr. Allbaugh. Thank you. I want to do what's right.
    Senator Shelby. And do it in an expeditious way. Okay?
    Mr. Allbaugh. Yes, sir.
    Senator Mikulski. Well, thank you, Senator. Those were 
really very enlightening questions. And I think your 
experience, not only on the Appropriations Committee, but in 
both chair and ranking on the Intelligence Committee, really--
--
    Senator Shelby. Thank you.
    Senator Mikulski [continuing]. Serves this committee well. 
Senator Bond is really tied up on the floor. We're going to 
submit his questions for the record, but let me go to mine.
    Senator Domenici really raised some very important issues, 
and I'd like to clarify it. First of all--this goes to the 
first-responder initiative--has the Justice Department's Office 
of Domestic Preparedness actually moved to FEMA, or is that 
something waiting for other actions?
    Mr. Allbaugh. It has not moved to FEMA. We are waiting on 
other actions. We do have the authority, as far as I know with 
the Stafford Act, to receive the responsibilities that ODP has 
been performing.
    Senator Mikulski. So you believe--and I'm not disputing 
this. I think we're all trying to parse this out.
    Mr. Allbaugh. Sure.
    Senator Mikulski. Now, you believe that, under the Stafford 
Act, you have the legislative authority to move, shall we say, 
inter-operably with Justice. Is that correct?
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski. Well, we would appreciate from FEMA how 
we are moving through this-
    Mr. Allbaugh [continuing]. We have the ability to perform 
the functions at ODP. We don't have the authority to move any 
agency or any part of an agency.
    Senator Mikulski. And what type of authority do you need? 
Do you need an executive order from the president, or do you 
need legislative and statutory authority?
    Mr. Allbaugh. I think we need legislative authority. I 
think it could be moved, as well, with an executive order from 
the president.
    Senator Mikulski. I see. Well, I believe that that should 
require more conversation with Governor Ridge our colleagues at 
Commerce--at State, Justice, Commerce----
    Mr. Allbaugh. Sure.
    Senator Mikulski [continuing]. To see this. I think we--
again, we're all united in the same goals. There are some 
reservations, but I believe we can--there's a spirit of 
goodwill to work this through. Let me, though, ask a couple of 
other questions along those lines.
    Well, first of all, you are waiting for other actions. Who 
do you think is going to take those other actions, and when, or 
do you--this seems to be more working this through our 
appropriation----
    Mr. Allbaugh. I think it's a combination of informing 
members on the Hill in both houses, along with the Attorney 
General and myself working through those necessary 
administrative actions that need to take place in order for 
this function to be moved over, as well as budgetary 
requirements to fully fund ONP in the future.
    Senator Mikulski. Well, my recommendation--I really-- we'd 
would hope that Governor Ridge could come and speak to the full 
Appropriations Committee, really accompanied by you and the 
FBI, who is crisis management and so on. But I think that there 
will be other conversations, and we look forward to having 
them.
    Mr. Allbaugh. I'll look forward to those.
    Senator Mikulski. Let me ask, though, the thinking--
there's--we're talking about three different first responders: 
our firefighters, our police officers, and our emergency 
medical officers. Am I correct?
    Mr. Allbaugh. And emergency managers.
    Senator Mikulski. And emergency managers. They, on a day-
to-day basis, perform three different kinds of functions. They 
have three different kinds of cultures. They have three 
different kinds of equipment needs or different kinds of 
technology needs. Absolutely, the training and the exorcizing--
or exercising--exorcizing is what we have to do with Al Qaeda--
but--that's Catholic, you know, what exorcists do.
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski. And----
    Mr. Allbaugh. I hope never to experience it.
    Senator Mikulski. Yes. And I believe, though, President 
Bush is doing his best in that way.
    But, as you see--actually, on the ground, they need to 
really be working together. Do you envision--how do you 
envision that that's going to work?
    Mr. Allbaugh. Well, part of our challenge and our 
responsibility is to encourage a command structure nationwide, 
from the top down. These individuals do not follow a structure 
where an incident takes place and everyone's sharing 
information sitting at the table at the same time or receiving 
information, a part of the decisions. That's where a lot of 
confusion arises.
    It is my hope that, using the incident command structure, 
we can lead the way, as we have at the Federal level--lead the 
way with State and local entities in challenging them to rise 
and meet the same standard using the command structure.
    Senator Mikulski. Well, again, I just want to point out an 
example. In Montgomery County, here in Maryland----
    Mr. Allbaugh. Right.
    Senator Mikulski [continuing]. You have both the 
combination of county-paid professional firefighters and 
volunteer fire departments. In fact, Rescue 1 that dashed to 
the Pentagon was volunteer. Mr. Duncan, the county executive, 
pointed out that he has 19 different volunteer fire 
departments, and they don't have a central command. In fact, 
they don't have a central command with him, and they like being 
autonomous. That's part of it. And I only use this as an 
example of even what's going to need to be pulled together at a 
local level. I'm not saying it's impossible, but we're going to 
have a lot of work ahead of us.
    Mr. Allbaugh. We have a lot of work ahead of us. It is a 
steep challenge. It is probably the second-greatest problem we 
face, beyond just the communications issue. Communities need to 
step up to the plate and enforce a command structure within 
their local jurisdiction.
    Senator Mikulski. And you see that as the incident command.
    Mr. Allbaugh. I do. I think that is something that has 
grown over the years out of the fire service, and it has proven 
to work efficiently. You're right, there are a variety of 
cultures that have been resistant to a command-structure 
approach, but it is the only way to ensure that the job is 
being done, and being done correctly, and all the tasks at hand 
are being addressed, as well as performing our most important 
function, which is saving lives and protecting property.
    Senator Mikulski. In the First Responder Initiative, how 
would the money flow? Would it go to States? Would it go to the 
local county governing body? Would it go directly to police 
departments, fire departments, EMSs?
    Mr. Allbaugh. Unlike the fire grant program that Congress 
was so gracious in funding last year and now the next two 
successive years, which are direct grants to local fire 
departments, we plan to use this grant money by passing it 
along directly to the States and ensure that 75 or 80 percent 
of that money is passed, then, on to local communities, who 
actually need the money for the training, planning, and 
equipment purchases--again, adhering to a set of national 
standards that we will set.
    Senator Mikulski. Now, you said ``going to the States.''
    Mr. Allbaugh. First--yes, ma'am.
    Senator Mikulski. And then the States putting it out.
    Mr. Allbaugh. That's correct.
    Senator Mikulski. Well----
    Mr. Allbaugh. They're our partners in just about every 
other grant program that we administer at FEMA. We have 
existing relationships, existing systems in place. It is the 
appropriate way to disburse this money in almost a block-grant 
form.
    Senator Mikulski. Well, I think this will require further 
conversation, because local leadership--mayors and county 
executives--in my case, also county commissioners--always feel 
that States take a lot of overhead before it gets to them.
    Mr. Allbaugh. And that's why----
    Senator Mikulski. You were----
    Mr. Allbaugh. I understand.
    Senator Mikulski. You were governor----
    Mr. Allbaugh. I've heard those same concerns, ma'am.
    Senator Mikulski [continuing]. Then-governor Bush's senior 
chief of staff----
    Mr. Allbaugh. I understand.
    Senator Mikulski [continuing]. So you know----
    Mr. Allbaugh. I understand.
    Senator Mikulski [continuing]. So you know him. And I think 
it has--it has validity. And yet at the same time, FEMA, 
through its emergency management responses, work through the 
States. So I also--we understand that.
    The fire grant--when we had the professional fire folks 
here, and we had a volunteer fire department--the national head 
of volunteer fire departments, they really were strong in 
keeping the fire-grant programs separate, which you could 
imagine that. But you see this--the fire-grant program ending 
and then going the other way. Is that correct?
    Mr. Allbaugh. No, ma'am, I don't. I see----
    Senator Mikulski. No?
    Mr. Allbaugh [continuing]. Those two programs separate 
and----
    Senator Mikulski. So you would continue to keep them 
separate?
    Mr. Allbaugh. I would continue to have the fire-grant 
program do what's been done over the last year. We implemented 
that program in a short 5-month period and got $100 million out 
the door all by September 30 last year, going to basic 
firefighting needs.
    The First Responder Program is a more global program--$3.5 
billion, for terrorist training, weapons-of-mass-destruction 
training, those incidents that are really catastrophic in 
nature--and it's almost as if you're comparing apples and 
oranges when you try to combine those two programs.
    Senator Mikulski. Well, Mr. Allbaugh, I'm happy to hear you 
say that, and particularly during this next year, while we're 
trying to really work to clarify in the best--move ahead on 
these organizational issues.
    I would, as we move through this appropriation, just really 
want to stay the course on the fire-grant program. And FEMA and 
its fire administrator--and I want to acknowledge his presence 
here, as well--really get kudos in the way the program was 
organized. For the first time, there were bumps and potholes, 
but no realignments. And also the firefighting community really 
appreciated that it was peer-reviewed.
    Mr. Allbaugh. Yes, it was.
    Senator Mikulski. That those who know what they do----
    Mr. Allbaugh. Awarded on a competitive basis and----
    Senator Mikulski. Yes. It is peer-reviewed and competitive, 
and they really thought that was first class, and so do I. They 
also talked about the Urban Search and Rescue Teams.
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski. And Senator Bond had the leadership for 
Missouri here, and he really outlined--yes--an outstanding 
plan. Because we said, ``Should we expand? These are 
terrific.''
    What do you see the role of the Urban Search and Rescue 
Teams--will they also be put under this, or how could we 
concentrate, in this year's appropriation--because we'll be 
making down payments on where we totally want to go--on how we 
can improve Urban Search and Rescue Teams?
    Mr. Allbaugh. I have a deep affinity for those men and 
women who are a part of our 28 teams nationwide. I personally 
would not increase the number of teams that we have, but 
rather, in years to come, improve our money that's spent in the 
USAR arena, in the area of equipment caches training again, and 
exercises and enhancing individual task force capability to 
respond to incidents.
    We were very, very fortunate, as you've already alluded to, 
in having the folks at Rockville and then Fairfax County right 
here in the back yard, essentially, of Washington, to respond 
to the site at the Pentagon. They did a first-class job working 
closely with Arlington police, Alexandria police, Arlington 
fire, Alexandria fire, and, of course, the individuals at the 
Pentagon. We were able to dispatch eight USAR teams immediately 
to New York City.
    There are 28 teams, two task forces on each team, 31 
individuals on each task force--they are thoroughbreds, for all 
practical purposes, of the industry. And----
    Senator Mikulski. Now, they refer to themselves as your 
special forces.
    Mr. Allbaugh. Well, they are. They're as close to special 
forces as FEMA will probably ever come.
    Senator Mikulski. Or the Marines. Depending on the point 
they wanted to make, they were either Marines or special----
    Mr. Allbaugh. Right.
    Senator Mikulski [continuing]. Forces. But whatever they 
were, they were terrific. And----
    Mr. Allbaugh. They are deployable in a short, 4-hour 
period, and we're working on logistically shading that time to 
the best of our ability. We still are due reports from the 
incident support teams--after-action reports--after the 
Pentagon event and New York City, which we'll be receiving in 
the next month and making improvements upon that and 
recommendations to improve their budgets along the way.
    Senator Mikulski. Well, again, I think we're absolutely on 
the same broadband--or we're inter-operable with each other. I 
really would commend to your attention the testimony of the 
Missouri leadership.
    Mr. Allbaugh. I've read that.
    Senator Mikulski. Yes. And I think they give us--in my 
mind, it gave me a very clear navigational chart. And I look 
forward to other conversations with you. Because as we move 
ahead this year, and we're in a very short appropriations--and 
we'll come back for your appropriations hearing, and we 
appreciate the generosity of your time today--but how we can 
really use the fire-grant program while we're working on the 
other issues and moving expeditiously, how we can strengthen 
our fire-grants program and at the same time our--this urban, 
just search and rescue, so that you would continue to have 
growing competency and better-equipped responders even within 
the firefighting community.
    Mr. Allbaugh. I couldn't agree with you more, ma'am, and I 
appreciate your support for all of our efforts, as well as 
members of this committee.
    Senator Mikulski. Well, listen, you've all--FEMA's been 
through a lot, and I just want to thank them. I mean, the way 
the national response team--the Office of Federal Response 
seems to work so well, when you read all the data that came out 
of New York, the way the 13 agencies worked together--I mean, 
this isn't about government. This is about health. This is 
about Americans helping each other. And that was the response.
    And so we really want to thank everybody. We know they've 
worked very long hours under enormously difficult conditions, 
and they're still up there.
    Mr. Allbaugh. They are.
    Senator Mikulski. In other words, the job is not done. And 
in some ways, the job is only the beginning----
    Mr. Allbaugh. Yes.
    Senator Mikulski [continuing]. In terms of this. So, again, 
we look forward to further conversations. We thank everybody.

                         CONCLUSION OF HEARING

    This committee stands in recess until March 6, when we will 
be taking the testimony of the Veterans Administration. Thank 
you.
    [Whereupon, at 11:30 a.m., Wednesday, February 27, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
